Hb\,
APf&J JlI/mU:

. k&mhix- TaiUxes

ExriiSxk l
?Pa££l(s1 ;
(/\)6&U1& TLG.hidfUk/bttft*,,**..-*.*\~X
( 6 ) JadLp?7£fis> #■? ilit

&vst~ ,

JuJUwienirs c$ £he- £iAe.AffeA&dft
^adtfrrte/rb apBie. giabt Sitfc'dfflt&ort.

* •

■#/*£•&

»-?
<^23

2M

(cl) cJIt^nteriUdit 2jLS,^irtcf APfetk

£&) Afil&ndd Tttitrnialicn , „ „

^Jur^s IW**• •
(Jury's VfirdutE
Arflevuled
£&nXen(Lifu^<*~~

. .,

M
i-a.

+ m

* *»•* a-4>+»

3>

H-r

JuDmi/lC *
<Pa&i(s) :
~5ud^ tr/iettiaf-tU li^.ltdrUi /bud

* <* <9 * S» »

hi

Case l:18-cv-00020-MW-CAS Document 23 Filed 02/01/19 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF FLORIDA
GAINESVILLE DIVISION
IVORY LEE ROBINSON,
Petitioner,
Case No. l:18cv20-MW/CAS

v.
JULIE L. JONES, Secretary,
Florida Department of Corrections,
Respondent.

ORDER ACCEPTING REPORT AND RECOMMENDATION
This Court has considered, without hearing, the Magistrate Judge's Report and
Recommendation, ECF No. 18, and has also reviewed de novo Petitioner’s
objections to the report and recommendation, ECF No. 21. Accordingly,
IT IS ORDERED:
The report and recommendation is accepted and adopted, over Petitioner’s
objections, as this Court’s opinion. The Clerk shall enter judgment stating,
“Respondent’s motion to dismiss, ECF No. 16, is GRANTED, the petition for writ
of habeas corpus, ECF No. 1, is DISMISSED, a Certificate of Appealability is

1

Case l:18-cv-00020-MW-CAS Document 23 Filed 02/01/19 Page 2 of 2

DENIED, and leave to appeal in forma pauperis is DENIED. Petitioner’s
Application for Certificate of Appealability, ECF No. 22, is DENIED.” The Clerk
shall close the file.
SO ORDERED on February 1, 2019.
s/Mark E. Walker
Chief United States District Judge

2

SI
<

St

*7$
t

%
«
SC

Q4*
<s

-so

■3
54Q

ui
M-i

ca

H
n:
><

LU

i

<U1

4
<1

,v»

<u

€
trts

n

Vo
% «*

r
■a
oj

£
<J3

V?

s v,y

n

ji

\

.

U

'^•5- T^kr •

■ r~K^-\

'i
IN THE CIRCUIT COURT OF THE EIGHTH JUDICIAL .CIRCUIT
IN AND FOR ALACHUA COUNTY, FLORIDA

k.
&

STATE OF FLORIDA,
Plaintiff,.

CASE NO.:

01-2002-CF-002039-A

DIVISION:

III

■

vs.

s

18 Sis .

' IVORY LEE ROBINSON,

a

Defendant.
rut nr.n.nBNVlNG MOTION FOR POST-CQNv'.CI?0N RLLIgE

QoSi 3

»™

<s>

^

■

THIS CAUSE comes.before theCourt upon Defendant's “3.850 Motion to Vacate tmJJSlAside $
Judgment/Conviction and Sentence for Lack of.!n.Personam' and/or Subject Matter lurisdietion." filed
• September 29,2009, pursuant to Florida Rule of Criminal Procedure 3.850. Upcm,consideration ofthemotion
and'the record, this CdUrtTihds.smdiconcludes as follows:
I.

On August 1,2003. after a juiytrial.Defendantwas found guilty of attempted secomMegree

murder with a firearm (count I)-and possession oft.firearm by a convicted felon (eount-II). Set Verdict.
Disposition.was continued until a later date. On Septembers, 2003,-the court-sentenced Defendant to a total of
twenty-five (25) years imprisonment

in the Department of Corrections. Sec Judgment and Sentence.

Defendant filed snapped. On November 16.7004, the First D,strict Court of Appeal per curiam affirmed
Defendant's eonvielion.and senjeaee. SwMandate.
2.
due tow

In the inslant moiion,Defendant alleges that the trial couit lacked subjeetmaner.jurisciietion

invalid, information file.'uy the' State. Aeeotdingto Defendant, the State's Idfoimatidn. astc count 1.

erroneously tails to refer to fee aCempt statute. section 777,04. Florida Stances, or to allege die dements of
anempt-rd murder.
' 3.
• 3.E5.0.mo

Defendant's.motipn is proccdurallybaried as untimely under Fla. R-Crim. P. 3;850(b). Anile

lion-is untimely if frledheyond'thc.lwo year limit prescribedby the rule. See Wilkinson v.-Slate, 504

So.2d 29.29 (Fla.2dDGA 1987). Themo.ien must befiled wife, two.yeara afterthemovamfsjudgmer.t and

((X)

&

n

-if-

is-

A
<
Order Den ying Motion for Post-Conviction Relief
State vs. Ivory Lee Robinson
Case No. 01-2002-CF-.002039-A
Pace 2_____________________________—------------

■■

l?:'

tv'

sentencebecome final. See Fla. R. Crim. P..3:850(b). A movant’s, judgm

wit and sentence-become final' when

any such direct review proceedings have concluded .and jurisdiction 16 entertain a motion for post-conviction
relief returns to the sentencing.court.

Word v. Dagger, SOS So.2d 778, 779 (Fla. laLp.CA 1987). Hare,

Defendant’s judgment and sentence became final or. December 2,2004. when the mandate on Defendant’s
direct appeal wa3 issued. See Mandate.

Because the instant motion was filed more.than two (2) years after

Defendant’s judgment and sentence became final, it is. barred as untimely. In addition. Defendant’s motion

;

;

eeptios to the Time-limitation. See Fla. R. Crim. P.
fails to allege any grounds svhieh would meet an ex
3.850(0).
4.

• Even ifDefendant’s motion

Moseley v. Stale, 7 So. 3d 550, 552 (F.a.
1983)), Dse

were timely filed, the claim raised in iris.without merit. See

5th DCA 2009) (citing Stole v. Gray, 435 So. 2d grS..87g(Phu

State’s .Lnformation-sumet.ently^eges .fe.elemer.ts of attempted second-degree murder even

though it fails to cite to the attempt-salute,

section 777.04, Florida Statutes..

Based on the foregoing,.it is ORDERED AND ADJUDGED tot:
Defciidant’S'motion'is hereby DENJED. Defendant may appeal.this decision to thePirst District
Cour. of Appeal within thirty (30) days of this Order’s effective, date.,

’

PONE AND ORDERED on this—^ day of October 2009.

DAVID A-GLAmi
CIRCUIT JUDGE-

V*t b fcs-i-'lftt? *4 w*r«l

v’ M!t

Mat
&■)

&

i

4^^

o

•■'flb
•, ^
'

■*

<2

O

IN THE CIRCUIT COURT OF THE EIGHTH JUDICIAL CIRCUIT
IN AND FOR ALACHUA COUNTY, FLORIDA
STATE OF FLORIDA,
CASE NO.:

01-2002-CF 002039-A

DIVISION:

III

Plaintiff,
vs.

C3

§g* F-

CO

crn

-o

CD Li1

SSe

IVORY LEE ROBINSON,
Defendant.

as* s
1

jD O'i

ORDER DENYING FIFTH MOTION FOR POST-CONVICTION RELIEF

~

•

o

°

THIS CAUSE comes before the Court upon Defendant's “Complaint/Petition for Writ of
Habeas Corpus/Redress pursuant to a Manifest Injustice and a Denial of Due Process in a Criminal
Procedure,” filed July 14,2014. The Civil Division transferred the petition into the above-captioned
case so that it could be considered as a motion for post-conviction relief under Fla. R. Crim. P.
3.850. Upon consideration of the motion and the record, this Court finds and concludes as follows:
1.

Defendant's motion is procedurally barred as untimely under Fla. R. Crim. P.

3.850(b). A rule 3.850 motion is untimely if filed beyond the two year period prescribed by the rule.
See Wilkinson v. State, 504 So.2d 29,29 (Fla. 2d DCA 1987). The motion must be filed within two
years after the movant’s judgment and sentence become final. See Fla. R. Crim. P. j.850(b). A
movant’s judgment and sentence become final “when any such direct review proceedings have
concluded and jurisdiction to entertain a motion for post-coriviction relief returns tp the sentencing
court.” Ward v. Dugger, 508 So.2d 778, 779 (Fla. 1st DCA 1987). Defendant’s judgment and
sentence became final on December 2, 2004, when the First District Court of Appeal issued its
mandate on Defendant’s direct appeal. See Mandate. Because the instant motion was filed more
than two (2) years after Defendant’s judgment and sentence became final, it is procedurally barred as

&

<-33-

o

r

Order Denying Fifth Motion for Post-Conviction Relief
State vs. Ivory Lee Robinson
Case No. 01-2002-CF-002039-A
Page 2
untimely.
.

2.

Defendant is hereby advised that the filing of frivolous claims may subject him to

sanctions by the Court. See Fla. R. Crim. P. 3.850(n). In addition, Defendant is advised that the
filing of false or frivolous claims may subject him to discipline by the Department of Corrections.
See § 944.28(2)(a), Fla. Stat. (2013); Fla. R. Crim. P. 3.850(n). Section 944.279(1), Florida Statutes,
specifically provides that a court may “at any time” determine whether a collateral criminal
proceeding is filed in good faith. This statute equates a lack of “good faith” with a determination
that the collateral action was “frivolous.” See §944.279(1), Fla. Stat. (stating that when a court finds
that an inmate files a “frivolous or malicious collateral criminal proceeding,” the inmate is subject to
“disciplinary procedures pursuant to the rules of the Department of Corrections”); § 944.28(2)(a),
Fla. Stat. (authorizing the Department of Corrections to forfeit gain-time when an inmate files a
“frivolous suit, action, claim, proceeding, or appeal”); Smith v. State, 35 Fla. L. Weekly D1794 (Fla.
1st DCA August 10, 2010).
Based on the foregoing, it is ORDERED AND ADJUDGED that:
Defendant’s motion is hereby DENIED. Defendant may appeal this decision to the First
District Court of Appeal within thirty (30) days of this Order’s effective date.
DONE AND ORDERED on thisjj^^ay of July2Q14,

MARK W. MOSELEY,
Circuit Judge

H-

J34-

/
Si

IN THE CIRCUIT COURT OF THE EIGHTH JUDICIAL CIRCUIT
IN AND FOR ALACHUA COUNTY, FLORIDA
STATE OF FLORIDA,
CASE NO.:

01-2002-CF-002039-A

DIVISION:

III

Plaintiff,
vs.
IVORY LEE ROBINSON,
Defendant.

ORDER DENYING SECOND MOTION TO CORRECT ILLEGAL SENTENCE
THIS CAUSE comes before the Court upon Defendant’s “Motion to Correct Illegal
Sentence,” filed March 16, 2016, pursuant to Florida Rule of Criminal Procedure 3.800(a). Upon
consideration of the motion and the record, this Court finds and concludes as follows:
1.

On August 1, 2003, after a jury trial, Defendant was found guilty of Attempted

. Second-Degree Murder with a Firearm (count I) and Possession of a Firearm by a Convicted Felon
(count II). See Verdict. Disposition was continued until a later date. On September 8, 2003, the
court sentenced Defendant, on count I, to a mandatory minimum 25 years imprisonment in the
Department of Corrections, pursuant to section 775.087(2), Florida Statutes; and, on count II, to a
mandatory minimum 3 years imprisonment in the Department of Corrections, pursuant to section
775.087(2), Florida Statutes. See Judgment and Sentence. The sentences were ordered to run
concurrently. Defendant filed an appeal. On November 16,2004, the First District Court of Appeal
per curiam affirmed the judgment and sentence. See Mandate.
2.

In the instant motion, Defendant alleges the following grounds for relief:
(Ground One)

The conviction for Attempted Second-Degree Murder with a
Firearm should not have been enhanced from a second-degree

Order Denying Second Motion to Correct Illegal Sentence
. State vs. Ivory Lee Robinson .
Case No. 01-2002-CF-002039-A
Page 2
felony to a first-degree felony because the jury did not find
that Defendant actually possessed the firearm; and,
(Ground Two)

1

The mandatory minimum of 25 years imposed on count I
(Attempted Second-Degree Murder with a Firearm) is illegal
because the jury did not find that Defendant caused death or
great bodily harm.

3.

As to Ground One, the claim raised is conclusively refuted by the record. The verdict

form for count I reflects that the jury found that Defendant not only possessed a firearm, but that he
also discharged it and injured the victim. See Verdict. In addition, under count II (Possession of a
Firearm by a Convicted Felon), the jury specifically found that Defendant “actually possessed” the
firearm. Id. Accordingly, the claim raised is without merit.
4.

As to Ground Two, the claim raised is conclusively refuted by the record. Defendant

was charged with, and found guilty of, shooting the victim in this case. See Information; Verdict.
Even though the language is not precise, it is clear from the verdict that the jury found beyond a
reasonable doubt that Defendant discharged a firearm causing great bodily harm. See, e.g., Gentile v.
State, 87 So. 3d 55, 57 (Fla. 4th DCA 2012) (“To be sure, petitioner acted alone and no possibility
exists that the jury convicted him under an accomplice liability theory; the jury could not have found
that someone other than petitioner himself personally carried or used the deadly weapon. Further, the
only manner in which petitioner was alleged to have attempted to murder the victim was through the
use of a deadly weapon.... [A]ny error in the jury's failure to make a more specific finding is clearly

to

*

Order Denying Second Motion to Correct Illegal Sentence
State vs. Ivory Lee Robinson
Case No. 01-2002-CF-00203 9-A
Page 3
harmless because of the overwhelming evidence that he used a deadly weapon.”). Accordingly, the
claim raised is without merit.
Based on the foregoing, it is ORDERED AND ADJUDGED that:
Defendant’s motion is hereby DENIED. Defendant may appeal this decision to the First
District Court of Appeal within thirty (30) days of this Order’s effective date.
DONE AND ORDERED on this

-^2-/day of March 2016.
ORIGINAL SIGNED BY
MARK W. MOSELEY
CIRCUIT JUDGE

MARK W. MOSELEY,
Circuit Judge

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that true copy of the foregoing Order was furnished by U.S. Mail/inter-office
delivery, on this
cday of March 2016, to the following:
Ivory Lee Robinson - DC# 022383
Columbia Correctional Institution Annex
216 SE Corrections Way
Lake City, FL 32025

Jeanne Singer, Chief Assistant State Attorney
State Attorney’s Office
ORIGINAL SIGNED BY
JOY CUMMINGS
JUDICIAL ASSISTANT

Joy Cummings, Judicial Assistant

o

o

Jp

IN THE CIRCUIT COURT OF
THE EIGHTH JUDICIAL CIRCUIT
IN AND FOR ALACHUA COUNTY, FLORIDA
STATE OF FLORIDA,
. CASE NO.: 01-2002-CF-002039-A
Plaintiff,
DIVISION:

HI
pj

vs.

ofn?'

IVORY LEE ROBINSON,
Defendant.

xa .

>»
=»
—

rv~r

!

ORDER DENYING MOTION FOR REHEARING

v- j
'T'
r'
/"l.,
rr

'a1*! =

03 i
CO

T1CO

©3

THIS CAUSE comes before the Court upon Defendant’s “Motion for Rehearing/Redress
Considerations on Order Denying a Rule 3.800(a) Motion to Correct Illegal Sentence, filed April 7,
2016, pursuant to Fla. R. Crim. P. 3.800(b)(1)(B). defendant seeks a rehearing on the order denying
his motion to correct illegal sentence. Upon consideration of the motion and the record, this Court
finds and concludes as follows:
Defendant does not raise any issue that was overlooked or unconsidered by this Court in its
original order.
Therefore, it is ORDERED AND ADJUDGED that:
i
Defendant’s motion for rehearing is hereby DENIED. Defendant may appeal the denial of
his underlying motion to correct illegal sentence to|the First District Court of Appeal within thirty
i

(30) days of this Order’s effective date.
DONE AND ORDERED on this

rt\
!day of April 2016.

W. MOSELEY, CIRCUIT JUDGE

a

IN THE DISTRICT COURT OF APPEAL
FIRST DISTRICT, STATE OF FLORIDA
IVORY LEE ROBINSON,

NOT FINAL UNTIL TIME EXPIRES TO
FILE MOTION FOR REHEARING AND
DISPOSITION THEREOF IF FILED

Petitioner,

CASE NO. 1D15-0547

Y.

STATE OF FLORIDA,
Respondent.

Opinion filed February 27, 2015.
Petition for Writ of Habeas Corpus

Original Jurisdiction.

Ivory Lee Robinson, pro se, Petitioner.
Pamela Jo Bondi, Attorney General, Tallahassee; Jennifer Parker, General Counsel,
Department of Corrections, Tallahassee, for Respondent.

PER CURIAM.
The petition for writ of habeas corpus is dismissed. See Baker v. State. 878 So.
2d 1236 (Fla. 2004). The petitioner is warned that any future collateral attacks on the

-9c

h)

judgment and sentence in Alachua County Circuit Court case number 01-2002-CF002039A may result in sanctions, including but not limited to referral for disciplinary
action, a prohibition on future pro se filings, or both. See Fla. Stat. § 944.279(1); State
v. Spencer. 751 So. 2d 47 (Fla. 1999).
MARSTILLER, RAY, and SWANSON, JJ., CONCUR.

Robinson v. State, 215 So.3d 1262 (2017)
'42 Fla. L. Weekly D758

Affirmed.
215 So.3d 1262
District Court of Appeal of Florida,
First District.

West Headnotes (22)

Ivor\’ Lee ROBINSON, Appellant,

ID

V.

STATE of Florida, Appellee.

Sentencing and Punishment
#*» Illegal sentence
A sentence that patently fails to comport with
statutory or constitutional limitations is by
definition “illegal.”

CASE NO. 1D16-1988
Opinion filed April 4,2017

Cases that cite this headnote
Rehearing Denied May 4,2017
Synopsis
Background: Defendant, whose convictions for attempted
second-degree murder and possession of a firearm by
a felon were confirmed on direct appeal, moved to
correct an illegal sentence, "arguing for the first time
since being charged that the absence of “great bodily
harm” constituted technical and substantive-defects in
the amended information. The .Circuit Court, Alachua
County, Mark W. Moseley, J., denied the motion, and
defendant appealed.

12)

Sentencing and Punishment
#=» Illegal sentence
Sentencing and Punishment
Time
Where it can be determined without an
evidentiary hearing that a sentence has been
unconstitutionally enhanced in violation of
the double jeopardy clause, the sentence is
illegal and can be declared so at any time. U.S.
Const. Amend. 5; Fla. R. Crirn. P. 3.800(a).
Cases that cite this headnote

Holdings: The District Court of Appeal, M. K. Thomas,
J., held that:

131

Constitutional Law

#*■ Necessity;Right to Jury Trial
[1] defendant's asserted technical charging error would
be deemed waived by his lack of a contemporaneous
objection to any technical insufficiency of the amended
information prior to the jury verdict and before his
sentence was imposed;

Jury
♦*» Sentencing Matters
As a result of Apprendi, certain facts, labeled
by state law as “sentencing factors,” are
regarded as essential elements of the offense
for purposes of the Sixth Amendment's
jury-trial guarantee and the due process
requirement of proof beyond a reasonable
doubt. U.S. Const. Amends. 6, 14.

[2] any defect in the charging document, namely failure to
allege “great bodily harm” as opposed to “bodily harm”
that resulted from defendant's shooting of the victim, was
cured by the victim's testimony at trial and the jury verdict;

Cases that cite this headnote
[3] Apprendi defects asserted by defendant did not rise to
the level of fundamental error; and
[4] even if Apprendi defects asserted by defendant
constituted a constitutional violation, any such error was
harmless.

WESTLAW

HI

Indictment and Information
Matter of aggravation in general
The U.S. Supreme Court's requirement that
Apprendi-Xype elements be included in all
federal indictments is grounded on the Grand
Jury Clause of the Fifth Amendment and also

w

Csntuson Reuters. No claim to original U.S Government Wo^ts

\;w

1

Robinson v. State, 215 So.3d 1262 (2017)
42 Fla. L. Weekly D758

serves a notice function; but Appremli does not
affect trial procedure except when fact-finding
is necessary to raise the floor or ceiling of
the authorized sentencing range. 11.S. Const.
Amend. 5.

charging document, or such claim is waived;
in the absence of timely objection, the
defendant's claim survives only if fundamental
error is established.
Cases that cite this headnote

Cases that cite this headnote
|9|
15]

Criminal Law
#= Slates

Indictment and Information
Enabling accused to prepare for trial

A state legislature is “vested,” subject to
constitutional limitations, with authority to
define the elements of a crime.

The purpose of an information is to inform the '
accused of the charge or charges against him,
so that the accused will have an opportunity
to prepare a defense.

Cases that cite this headnote

161

Cases that cite this headnote

Criminal Law
<&=> Elements of offense in general
Identification of the elements of a crime which
must be charged in a state-issued information
is, at least initially, a question of legislative
intent.

1101

Indictment and Information
Grounds
While it is the duty of the State to give clear
and adequate notice through the information
of the crime or crimes being charged, defects in
the information are not grounds for automatic
reversal or dismissal. Fla. R. Crim. P. 3.140.

Criminal Law
#= Right to jury determination
Indictment and Information
#=> Mode of Making Objections in General
There exist two avenues for raising an
Apprendi sentencing error: the first requires a
timely objection to the technical-defect, and
technical errors may be remedied at the trial
level by dismissal or an order for particulars;
secondly, if no timely objection is raised
rendering the technical-defect as unpreserved,
the defendant may raise, on appeal, a claim of
fundamental right violation, which is subject
to harmless error analysis.

Cases that cite this headnote

mi

Criminal Law
#= In Preliminary Proceedings
A defendant must raise a timely objection
at the trial court level in order to preserve
a technical-defect challenge to a state-issued

Indictment and Information
#>» Objections to Indictment or Information
Defendant's asserted technical charging error,
under rule governing correction of an illegal
sentence, would be deemed waived by his
lack of a contemporaneous objection to
any technical insufficiency of the amended
information prior to the jury verdict and
before his sentence was imposed. Fla. R.
Crim. P. 3.800(a); Fla. Stat. Ann. §§ 924.051 (1)
(b), 924.051(3).

Cases that cite this headnote
181

Criminal Law
#=» Indictment or information in general
Indictment and Information
Informing accused of nature of charge

Cases that cite this headnote
|7|

Indictment and Information
#=» I nforming accused of nature of charge

Cases that cite this headnote
1121

Criminal Law

ClX) fej
WESTLAW

>■)! V 1 oomsoit Ranters. No claim to original U.S. Government Works.

2

Robinson v. State, 215 So.3d 1262 (2017)
42 Fla. L. Weekly D758

Habeas Corpus
#=> Indictment, information, affidavit, or
complaint

#= Indictment or Information
Where an alleged defect in a charging
document is not the omission of an essential
element of the crime, the defect is fundamental
only if due process was denied. U.S. Const.
Amend. 14.

Indictment and Information

#=* Sufficiency of accusation in general
A conviction on a charge not made by the
indictment or information is a denial of due
process, and an indictment or information
that wholly omits to allege one or more of the
essential elements of the crime cannot support
a conviction for that crime; this is a defect that
can be raised at any time-before trial, after
trial, on appeal, or by habeas corpus. U.S.
Const. Amend. 14.

Cases that cite this headnote
1131

Indictment and Information

#«• Matter of aggravation in genera]
Different levels of punishment, under state
law, do not create separate offenses, and thus,
the requirements of the Sixth Amendment
regarding notice can be satisfied without
necessarily and precisely alleging Apprenditype elements in the charging documents. U.S.
Const. Amend. 6.

Cases that cite this headnote
[17|

Cases that cite this headnote
[141

Any defect in the charging document, namely
failure to allege “great bodily harm” as
opposed to “bodily harm” that resulted from
defendant's shooting of the victim, was cured
by the victim's testimony at trial and the
jury verdict in prosecution for attempted
second-degree murder and possession of a
firearm by a felon; the jury found the
defendant guilty as charged, which included
the factual finding the defendant shot the
victim, which was sufficient to satisfy “great
bodily harm” as a required element of the
sentencing enhancement. Fla. Stat. Ann. §§
782.04, 790.23.

Criminal Law
#= Necessity of Objections in General
Criminal Law
#*= Necessity of specific objection
To preserve error for appellate review, a
contemporaneous, specific objection must be
made during trial.
Cases that cite this headnote

1151

Indictment and Information
$= Reference to or recital of statute
A charging document that references a specific
section of the criminal code sufficiently
detailing all the elements of the offense may
support a conviction where the pleading
otherwise fails to include an essential element
of the crime.

Criminal Law
Indictment or information in general

Cases that cite this headnote
1181

Criminal Law

#-> Right to jury determination
Failure to subject a sentencing factor to the
jury is subject to harmless error analysis, if the
error is of a fundamental nature.

Cases that cite this headnote

Cases that cite this headnote
(161

Constitutional Law
#= Relation between allegations and proof:
variance
Criminal Law

«=» Indictment or Information

1191

Criminal Law

#=> Indictment or Information
Apprendi defects asserted by defendant,
specifically that the charging instrument failed

WESTLAW C 201 < Thomson Reuters. No claim to original U.S. Government Works.

3

Robinson v. State, 215 So.3d 1262 (2017)
42 Fla. L. Weekly D758

to allege “great bodily harm” as opposed to
“bodily harm” that resulted from defendant's
shooting of the victim, did not rise to the
level of fundamental error in the absence of
any showing by defendant that a conviction
for second-degree murder and possession of a
firearm by a convicted felon could subject him
to a reclassification of the charged felony. Fla.
Slal. Ann. § 775.087.

Criminal Law
Indictment or information in general
Even if Apprendi defects asserted by .
defendant, specifically that the charging
instrument failed to allege “great bodily
harm” as opposed to “bodily harm” that
resulted from defendant's shooting of the
victim, constituted a constitutional violation,
any such error was harmless, because the
defects were cured by the victim's testimony
at trial and the jury verdict in prosecution
for attempted second-degree murder and
possession of a firearm by a felon. Fla. Stat.
Ann. §§ 784.045, 790.23.
Cases that cite this headnote

[211

Criminal Law
$■» Indictment or information in general
The test for granting relief based upon a
substantive-defect in the charging document is
actual prejudice.
Cases that cite this headnote

[22|

*1265 An appeal from an order of the Circuit Court for
Alachua County. Mark W. Moseley, Judge.
Attorneys and Law Firms
Ivory Lee Robinson, pro se, Appellant.

Cases (hat cite this headnote
1201

Cases that cite this headnote

Sentencing and Punishment
§=> Illegal sentence
An illegal sentence subject to correction under
rule governing the correction, reduction, or
modification of sentences must be one that
no judge under the entire body of sentencing
laws could possibly impose under any set of
factual circumstances; the illegality must be of
a fundamental nature and clear from the face
of the record. Fla. R. Crim. P. 3.800(a).

Pamela Jo Bondi, Attorney General, and Jennifer J.
Moore, Assistant Attorney General, Tallahassee, for
Appellee.
Opinion

THOMAS, M. K., J.
Ivory Lee Robinson, defendant, appeals an order denying
his rule 3.800(a) motion to correct illegal sentence,
in which he challenges a twenty-five year mandatory
minimum sentence imposed under the “10-20-Life” law.
See §775.087. Fla. Stat. In the first claim, he asserts he was
never found in actual possession of a firearm. As this claim
was raised and disposed of in a prior appeal, it is barred..
Now in his second claim and more than thirteen years after /
his conviction and sentence, he proclaims his mandatory;
minimum sentence is illegal pursuant to Apprendi v. New
Jersey. 530 U.S. 466. 120 S.Ct. 2348. 147 L.Ed.2d 435
(2000), because: 1) the Amended Information failed to
expressly charge that “great bodily harm,” as opposed to“bodily harm,” resulted from his shooting of the victim
in the stomach with a .357 revolver handgun (in essence,
defendant is raising a technical-defect challenge, in that
the Amended Information does not track precisely the
verbiage of the sentencing enhancement statute); and 2)
the “great bodily harm” factor of the enhancement statute
was not precisely submitted to, and found by the jury
beyond a reasonable doubt, resulting in grounds for a
substantive-defect challenge. We disagree, and affirm his
sentence.

I. Facts

In 2003, the State charged the defendant with attempted
second-degree murder and possession of a firearm by a
felon pursuant to sections 784.045, 782.04 and 790.23,
Florida Statutes (2002). The Amended Information also

City) /-dr}
WE5TLAW

'K

I." Thomson Rnuters. No claim to original U.S. Government Works.

4

Robinson v. State, 215 So.3d 1262 (2017)
42 Fla. L. Weekly D758

charged section 775.087, Florida Statutes, the sentencing
enhancement provision, also known as the “10-20-Life”
law. The victim testified at trial and described being shot
in the stomach by the defendant. The victim's injuries
required immediate medical care and hospitalization.
The jury found the defendant guilty on all counts, as
charged. In response to special interrogatories submitted,
the jury found: 1) “the defendant guilty of Attempted
Second[-]Degree Murder, as charged in Count I of the
Information;” 2) that he “possessed and discharged a
firearm, and by the discharge of said firearm caused injury
to another person;” 3) he was guilty of Possession of a
Firearm by a Convicted Felon, as charged in Count II of
the Information; and 4) he was “in actual possession of a
firearm.” This Court affirmed the conviction and sentence
on direct appeal. Robinson v. State, 888 So.2d 25 (Fla. 1st
DCA 2004) (unpublished table decision).
Thereafter, the defendant filed a number of post­
conviction pleadings including multiple rule 3.800(a)
motions, which asserted no finding of the “use” of a
firearm, failure to find “actual” possession of a firearm,
and use of a “deadly weapon,” among other claims.
All were unsuccessful. In March 2016, the defendant
filed this rule 3.800(a) motion, arguing for the first time
since being charged that the absence of “great bodily
harm” constituted technical and substantive-defects in the
Amended Information.

II. “Dlegal Sentence”
(2| “|T]he' definition of ‘illegal sentence’ as
interpreted by case law has narrowed significantly since
that term was used in the 1960s and 1970s.” Carter v.
State. 786 So.2d 1173. 1176 (Fla. 2001). In *1266 Davis
v. State. 661 So.2d 1193, 1196 (Fla. 1995), the Florida
Supreme Court defined an “illegal sentence” as “one
that exceeds the maximum period set forth by law for
a particular offense without regard to the guidelines.”
But later, the contention Davis mandates that only those
sentences that facially exceed the statutory maximums
may be challenged as illegal under rule 3.800(a) was
rejected. Stale v. Mancino. 714 So.2d 429,433 (Fla. 1998).
Instead, “[a] sentence that patently fails to comport with
statutory or constitutional limitations is by definition
‘illegal.’ ” hi Further, “where it can be determined
without an evidentiary hearing that a sentence has been
unconstitutionally enhanced in violation of the double

jeopardy clause, the sentence is illegal and can be declared
so at any time under rule 3.800.” Hopping v. State, 708
So.2d 263. 265 (Fla. 1998). The Florida Supreme Court
thus receded from Davis in Mancino and Hopping to
the extent that Davis could be read to limit challenges
under rule 3.800(a) to only those sentences that exceed the
“statutory maximum.” Carter. 786 So.2d at 1177.
In 2014, the Florida Supreme Court addressed
the question of whether a rule 3.800(a) motion
is an appropriate vehicle to attack a defendant's
upward-departure sentence under Apprendi. Blakely v.
Washington. 542 U.S. 296, 124 S.Ct. 2531, 159 L.Ed.2d
403 (2004), and Plott v. State. 148 So.3d 90 (Fla. 2014).
The Court determined “that upward departure sentences
that are unconstitutionally enhanced in violation of
Apprendi and Blakely fail to comport with constitutional
limitations, and consequently, the sentences are illegal
under rule 3.800(a).” Plott. 148 So.3d at 95. Recently,
however, in Martinez v. State. No. SC15-1620,----So.3d
----- , 2017 WL 728098 (Fla. Feb. 23, 2017), the Florida
Supreme Court declared that an alleged technical-defect
in the charging document, which was not preserved at the
trial level, does not constitute an “illegal sentence” subject
to correction under Florida Rule of Criminal Procedure
3.800(a).
/------Accordingly, only the defendant's substantive-defect
claim (that Apprendi factors were not submitted to and
found by the jury) is properly raised by rule 3.800(a)
motion.

HI

WESTLAW

III. Apprendi & State-Issued Informations
[3| |4| The defendant asserts that pursuant to Apprendi.
his conviction and sentence are illegal, as the Amended
Information did not “precisely” track the sentencing
reclassification statute by charging “great bodily harm. „ i
As a result of Apprendi. certain facts (though labeled
by state law as “sentencing factors”) are regarded as
essential elements of the offense for purposes of the Sixth
Amendment's jury-trial guarantee and the due process
requirement of proof beyond a reasonable doubt. The
U.S. Supreme Court's requirement that Apprendi-tvpe
elements be included in all federal indictments is grounded
on the Grand Jury Clause of the Fifth Amendment *1267
and also serves a notice function. Id. at 476, 120 S.Ct.
2348. But Apprendi does not affect trial procedure except

Li£lM

■ ip;rvt'ioi> Kojt.ers No claim to original U S. Government Works

5

Robinson v. State, 215 So.3d 1262 (2017)
42 Fla. L. Weekly D758

when fact-finding is necessary to raise the floor or ceiling
of the authorized sentencing range. See Blakely: Allevne v.
United States. — U.S.
, 133 S.Ct. 2151. 186L.Ed.2d
314(2013).

The Fifth Amendment's Indictment Clause states, in
pertinent part: “[N]o person shall be held to answer
for a capital, or otherwise infamous crime, unless on
a presentation or indictment of a Grand Jury.” U.S.
CONST. Amend. V. The U.S. Supreme Court, to date,
has not yet held the “Fifth Amendment's grand jury
indictment requirement” as applicable to the states. Gosa
v. Mavden. 413 U.S. 665. 668, 93 S.Ct. 2926, 37 L.Ed.2d
873 (1973); Byrd v. State. 995 So.2d 1008, 1011 (Fla. lsl
DC A 2008). The Sixth Amendment states, in pertinent
part: “[I]n all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an
impartial jury of the State and district wherein the crime
shall have been committed ... and to be informed of the
nature and cause of lent the accusation.” U.S. CONST.
Amend. VI. The states would have a constitutional
obligation to include Apprendi-tvpe factors in their
charging instruments only if the notice requirement of
the Sixth Amendment, which does apply to the states
via Fourteenth Amendment due process, imposed such
a requirement. Duncan v. Louisiana. 391 U.S. 145. 149,
88 S.Ct. 1444. 20 L.Ed.2d 491 (1968) (holding the Sixth
Amendment right to a jury trial applies to the states
through the Fourteenth Amendment).

Following Apprendi, the United States Supreme Court
issued multiple opinions defining an “Apprendi factor.”
See Blakely: Ring v. Arizona. 536 U.S. 584. 122 S.Ct.
2428, 153 L.Ed.2d 556 (2002); Allevne. In 2001, the
Florida Supreme Court determined that sentencing errors
raised under the Prison Releasee Reoffender Act must be
preserved for review and rejected the assertion that such
error was fundamental. McGregor v. State. 789 So.2d 976,
977 (Fla. 2001). This was likely a precursor to a similar
analysis of Apprendi factors.

In 2002, the Supreme Court, in United States v. Cotton.
535 U.S. 625, 122 S.Ct. 1781, 152 L.Ed.2d 860 (2002),
addressed a defendant's appeal of a technical-pleading
deficiency in a federal indictment in the absence of a
challenge regarding the jury verdict submission. The
defendant asserted the imposition of an illegal sentence
as a result of the indictment's failure to charge the
precise weight of drugs in his possession at the time of
arrest (where amount of drugs was relevant to sentencing
enhancement, but not to underlying offense). ]d. at 628,
122 S.Ct. 1781. Of note, *1268 the defendant did not
raise an objection to the alleged technical-defect in the
indictment at the trial stage. In a unanimous decision
written by Justice Rehnquist, in which the sentence was
upheld, the Supreme Court applied its Apprendi analysis
as follows: under the Due Process Clause of the Fifth
Amendment and the notice and jury trial guarantees
of the Sixth Amendment, any factor (other than prior
convictions) that increases the maximum penalty for a
|6] A state legislature is “vested,” subject to crime must be: 1) charged in an indictment; 2) submitted
15]
constitutional limitations, “with authority to define the
to the jury; and 3) proven beyond a reasonable doubt.
elements of a crime.” Chicone v. State. 684 So.2d 736, 741
Id, at 627, 122 S.Ct. 1781. However, the Court found
(Fla. 1996). “Accordingly, identification of the elements
that an overall record review, with an emphasis on
of a crime which must be charged in a state-issued
the jury verdict, confirmed that the three-fold Apprendi
information is, at least initially, a question of legislative
requirements were satisfied.
intent.” id, The Florida Legislature enacted the “ 1020-Life” sentencing reclassification statute components
The Supreme Court, in Cotton, further detailed the
as “sentencing factors” rather than elements of the
deficiency in the indictment did not present a jurisdictional
underlying offense—an act within the state's established
weakness for failure to charge a crime, and also, the
power. McMillan v. Pennsylvania. 477 U.S. 79, 83, 106
omission of the sentencing enhancement factor in the
S.Ct. 2411,91 L.Ed.2d 67 (1986): Patterson v. New York.
indictment did not justify vacating the enhanced sentence.
432 U.S. 197, 211, 97 S.Ct. 2319. 53 L.Ed.2d 281 (1977);
535 U.S. at 626, 122 S.Ct. 1781. The Court explained the
Sneiser v. Randall. 357 U.S. 513, 523, 78 S.Ct. 1332, 2
real threat then to the:
L.Ed.2d 1460 (1958).
‘fairness, integrity, or public reputation of judicial
proceedings'
would be if respondents, despite the
A review of the evolution of Apprendi. with emphasis
overwhelming and uncontroverted evidence that they
on precedent addressing charging-document defects and
were
involved in a vast drug conspiracy, were to
the relationship to the jury verdict, is necessary here.
receive a sentence prescribed for those committing less

(Ik)
WESTIAW

ill!'

or;q;::s! J.S. Govsir-nert Work*

6

Robinson v. State, 215 So.3d 1262 (2017)
42 Fla. L. Weekly D758

substantial crimes because of an error that was never
objected to at trial.
Id. at 634. 122 S.Ct. 1781. Accordingly, Apprenditype element satisfaction could be accomplished despite
charging deficiencies.
In 2006, in a landmark decision, the United States
Supreme Court declared Apprendi violations no longer
constitute per se fundamental error. See Washington v.
Recuenco. 548 U.S.2I2, 222. 126 S.Ct. 2546. 165 L.Ed.2d
466 (2006). The Court announced:
Failure to submit a sentencing factor to the jury is not
“structural” error. If a criminal defendant had counsel
and was tried by an impartial adjudicator, there is a
strong presumption that most constitutional errors are
subject to harmless-error analysis. E.g.. Neder v. United
Slates. 527 U.S. I. 8. 119 S.Ct. 1827, 144 L.Ed.2d 35
[ (1999) ]. Only in rare cases has this Court ruled an
error ‘structural,’ thus requiring automatic reversal. In
Neder. the Court held that failure to submit an element
of an offense to the jury—there, the materiality of
false statements as an element of the federal crimes
of filing a false income tax return, mail fraud, wire
fraud, and bank fraud, see id. at 20-25, 119 S.Ct.
1827—is not structural, but is subject to Chapman's
harmless-error rule, 527 U.S. at 7-20. 119 S.Ct. 1827,...
Apprendi makes clear that “[a]ny possible distinction
between an ‘element’ of a felony ... and a ‘sentencing
factor’ was unknown...during the years surrounding
our Nation's founding.” 530 U.S. at 478,120 S.Ct. 2348.
Accordingly, the Court has treated sentencing factors,
like elements, as facts that have to be tried to the jury
and proved beyond a reasonable doubt.
Id. at 213, 126 S.Ct. 2546. Following Recuenco. even
failure to submit an Apprendi factor to the jury was not
considered structural error, and therefore, not a basis for
a per se reversal on direct appeal.
In Galindez v. Stale. 955 So.2d 517 (Fla. 2007), the
Florida Supreme Court applied the Recuenco harmlesserror application to Apprendi and Blakely challenges. The
Florida Supreme Court detailed, “...[T]o the extent some
of our pre-Apprendi decisions may suggest that the failure
to submit factual issues to the jury is not subject *1269 to
harmless error analysis, Recuenco has superseded them.”
Id, at 522-523.

|7| A year later, the Florida Supreme Court in Deparvine
v. State. 995 So.2d 351 (Fla. 2008), distinguished the
holding and application of its prior decision in State
v. Gray, 435 So.2d 816 (Fla. 1983), and addressed
preservation and waiver of alleged Apprendi error.
Specifically, the court previously held, “[Generally, if
an indictment or information fails to completely charge
a crime under the laws of the state, the defect can be
raised at any time. Gray. 435 So.2d at 818 (emphasis
added). Ftowever, now “where a defendant waits until
after the State rests its case to challenge the propriety
of an indictment, the defendant is required to show
not that the indictment is technically defective but that
it is so fundamentally defective that it cannot support
a judgement of conviction.” Deparvine. 995 So.2d at
373 (citing Ford v. State. 802 So.2d 1121. 1130 (Fla.
2001) (emphasis added)). Per Deparvine. there exist two
avenues for raising an Apprendi error. The first requires a
timely objection to the technical-defect. Technical errors
may be remedied at the trial level by dismissal or an
order for particulars. Secondly, if no timely objection is
raised rendering the technical-defect as unpreserved, the
defendant may raise, on appeal, a claim of fundamental
right violation, which is subject to harmless error analysis.
Accordingly, following Deparvine, the holding of Gray
could no longer be cited as a basis for per se reversible
error as technical-defects were no longer considered
“structural error.”
The Florida Supreme Court later held that the
preservation rules of Deparvine applied to a defendant's
challenge to charging documents involving mandatory
minimum sentencing under the “ 10-20-Life” law. Bradley
v. State. 3 So.3d 1168 (Fla. 2009). The court highlighted
the “slightly different” rules relating to raising sentencing
error challenges: 1) when preserved for review by
contemporaneous objection, error may be raised on
direct appeal; 2) even if not originally preserved, rule
3.800(b) provides a defendant with a mechanism to
correct sentencing errors in the trial court at the earliest
opportunity and gives defendants a means to preserve
these errors for appellate review even while an appeal is
pending (but before initial brief); 3) rule 3.850 allows a
defendant to raise a sentencing error within two years after
the sentence becomes final; and 4) rule 3.800(a) permits
“a defendant to allege that the sentence was illegal, that
insufficient credit was awarded for time served, or that the
sentencing scoresheet was incorrectly calculated.” Jackson

(n) m

WESTLAW

'■'.■cny-ixv -oiute.'s. No r.iaiiv. to original U.S. Government Works.

7

Robinson v. State, 215 So.3d 1262 (2017)
42 Fla. L. Weekly D758

v. State. 983 So.2d 562, 568 (Fla. 2008) (citing Brooks v.
State. 969 So.2d 238. 24I -42 (Fla. 2007)).
In Price v. State. 995 So.2d 401 (Fla. 2008), the
Florida Supreme Court, in further distinguishing
Gray, recognized a distinction between technical and
substantive-defect challenges to state informations. Price
provided a standard for distinguishing a technical-defect
from a substantive-defect in declaring a substantive-defect
(capable of appeal at any time as violation of fundamental
right) as one that “wholly fails to allege any element of the
crime .... ” Id., at 405.
In 2010, the Florida Supreme Court again reviewed a
conviction and sentence based on an alleged information
deficiency. Miller v. State. 42 So.3d 204, 216 (Fla. 2010).
The court announced “...the test for granting relief based
on a defect in the information is actual prejudice to the
fairness of the trial” is applicable to Apprendi challenges
to state-issued informations, regardless of an enhanced
sentencing component, kf

Davis v. Slate. 884 So.2d 1058 (Fla. 2d DCA 2004), and
Daniel v. State. 935 So.2d 1240 (Fla. 2d DCA 2006), as
supporting per se reversible error for technical-defects in
charging documents. See McKenzie v. State. 31 So.3d
275 (Fla. 2d DCA 2010); Green v. State. 139 So.3d 460
(Fla. 1st DCA 2014); Lewis v. State. 177 So.3d 64 (Fla.
2d DCA 2015). However, the Florida Supreme Court's
recent opinion in Martinez v. State. No. SC 15-1620,---So.3d
•. 2017 WL 728098 (Fla. Feb. 23,2017), declares
technical-defects in state-issued charging documents are
no longer considered “structural” constituting per se
reversible error and do not qualify as an “illegal sentence”
subject to a rule 3.800(a) challenge. A defendant must
raise a timely objection at the trial court level in order
to preserve a technical-defect challenge, or such claim is
waived. In the absence of timely objection, the defendant's
claim survives only if fundamental error is established.

IV. The Amended Information
The subject Amended Information charged:

*1270 A year later, in Carbajal v. State. 75 So.3d
258 (Fla. 2011), the Florida Supreme Court further
distinguished the application of Gray. The Court advised:
We have also explained, however, that while a
charging instrument is essential to invoke the circuit
court's subject matter jurisdiction, ‘defects in charging
documents are not always fundamental where the
omitted matter is not essential, where the actual notice
provided is sufficient, and where all the elements of the
crime in question are proved at trial.’
Id. at 262 (quoting Gray, 435 So.2d at 818).
The Eleventh Circuit agreed with the Florida Supreme
Court's holding that the Sixth Amendment did not require
an indictment specify aggravating circumstances, even in
a capital case. Grim v. Secy., Fla. Dep't of Corrs.. 705
F.3d 1284 (11 Ih Cir. 2013); seeu ualso Winkles v. State.
894 So.2d 842, 846 (Fla. 2005).
|8| Despite precedent provided by the United
States Supreme Court and Florida Supreme Court,
conflict exists among the district courts of Florida
regarding treatment of Apprendi defects in state-issued
informations. District courts continue to intermittently
cite Whitehead v. Slate. 884 So.2d 139 (Fla. 2d DCA
-004), Rogers v. State. 875 So.2d 769 (Fla. 2d DCA 2004),

... IVORY LEE ROBINSON, in Alachua County,
Florida, on or about May 26, 2002, unlawfully and
by an act imminently dangerous to another, and
evincing a depraved mind regardless of human life, but
without a premediated design to effect the death of
any particular person, did attempt to kill and murder
WILLIAM FRANK MABREY, by shooting William
Frank Mabrey, a human being, with a firearm and/
or IVORY LEE ROBINSON did unlawfully commit
a battery upon WILLIAM FRANK MABREY by
actually and intentionally touching or striking said
person against said person's will, or causing bodily
harm to WILLIAM FRANK MABREY and in
the commission of said battery did use a deadly
weapon, to-wit: .357 Llama Comanche Stoger Industries
Revolver Serial Number S830231, and in the course
or commission of said offenses, Ivory Lee Robinson
did discharge a firearm; to wit; 357 Llama Comanche
Stoger Industries Revolver. Serial Number S83023; and
as a result of the discharge of said firearm, Ivory Lee
Robinson did cause an injury to WILLIAM FRANK
MABREY, in violation of Section 775.087, Florida
Statutes, *1271 Section 784.045(l)(a)(2), and Section
782.04(2), Florida Statutes. (L10).
COUNT II: ... IVORY LEE ROBINSON, in Alachua
County, Florida, on or about May 26, 2002, having

// sn ftr)
WESTtAW

:

rf'i.o \o oh-pipa! ’J S. Gnvetnp'ent

8

Robinson v. State, 215 So.3d 1262 (2017)
42 Fla. L. Weekly D758

been convicted of a felony in the courts of this state or
of a crime against the United States of America which
is designated as a felony or convicted of an offense
in another state, territory or country punishable by
imprisonment for a term exceeding one year, did own or
have in his care, custody, actual possession or control,
a certain firearm, to-wit:. 357 Llama Comanche Stoger
Industries Revolver Serial Number S830231, contrary
to Section 790.23(1). Florida Statutes. (L5)

as to mislead the accused and
embarrass him or her in the
preparation of a defense or expose
the accused after conviction or
acquittal to substantial danger of
a new prosecution for the same
offense.

Fla. R. Crim. P. 3.140(o). These sections reveal the duty
of the State to give clear and adequate notice, but with
the disclaimer that defects are not grounds for automatic
(Emphasis added.)
reversal or dismissal. See Leeman v. State. 357 So.2d 703.
[9|
1101 The purpose of an information is to inform 705 (Fla. 1978).
the accused of the charge(s) against him, so that the
accused will have an opportunity to prepare a defense.
Florida charges the majority of crimes by information. ~
Florida Rule of Criminal Procedure 3.140 provides,
“[T]he indictment or information on which the defendant
is to be tried shall be a plain, concise, and definite
written statement of the essential facts constituting the
offense charged.” In addition, Florida Rule of Criminal
Procedure 3.140(d) (1) further requires the information to
recite:
... official or customary citation of
the statute, rule, regulation or other
provision of law that the defendant
is alleged to have violated. Error in
or omission of the citation shall not
be grounds for dismissing the count
or reversal of a conviction based
thereon if the error or omission did
not mislead the defendant to the
defendant's prejudice.
Rule 3.140 allows a court to order the prosecuting
attorney to furnish a statement of particulars when the
information fails to inform the defendant sufficiently to
prepare a defense. With respect to any defect,
no indictment or information, or
any count thereof, shall be dismissed
or judgement arrested, or new trial
granted on account of any defect
in the form of the information or
of misjoinder of offenses or for
any cause whatsoever, unless the
court shall be of the opinion that
the indictment or information is
so vague, indistinct, and indefinite

Technical-Defect Challenge
(11| Here, defendant asserts the Amended Information is
technically flawed pursuant to Apprendi, which he argues
requires the phrase “great bodily harm” be precisely
charged as an essential element of the enhancement
provision. Accordingly, he asserts such an omission
constitutes per se reversible error and cannot be cured
by jury verdict. The defendant claims error based on
a semantic comparison arguing that the information
does not sufficiently charge the required Apprendi
elements. In support, the defendant cites to the Second
District's opinions in Daniel and Whitehead. These cases
presented challenges to minimum mandatory sentences
and the *1272 charging documents did not track the
language of the enhancement statute. In both, the jury
ultimately found the specific factors pursuant to special
interrogatories. Daniel, 935 So.2d at 1241: Whitehead. 884
So.2d at 139. The Second District reversed both sentences,
finding that the jury verdict could not cure the “defects” in
the charging document and an information must precisely
track the sentencing enhancement statute. IcL However,
Daniel and Whitehead are readily distinguishable and
have now been abrogated by the Florida Supreme Court
2017 WL
in Martinez, No. SC15-1620,---- So.3d at
728098, at *4. In Daniel, the State conceded error on a
portion of the sentencing and the case involved multiple
defendants- a fact pattern demanding greater specificity in
pleading. Daniel. 935 So.2d at 1241.
|12] Technical-defects in a charging document are
reviewed differently than the failure to assert an essential
element of the crime. Gray, 435 So.2d at 818. “Great
bodily harm” is not an essential element of attempted

(if)
WESTLAW

fs-,;

No ..naim tc original U S Government Works.

9

Robinson v. State, 215 So.3d 1262 (2017)
42 Fla. L. Weekly D758

second-degree murder or possession of a firearm by a
convicted felon, but rather, it allows for reclassification
of the underlying crimes pursuant to section 775.087,
Florida Statutes. Because the alleged defect was not
the omission of an essential element of the crime, the
defect is fundamental only if due process was denied.
Fonnollv v. State. 172 So.3d 893.904 (Fla. 3d DCA 2015);
Delgado v. Stale. 43 So.3d 132, 133 (Fla. 3d DCA 2010)
(“An information is fundamentally defective only where
it totally omits an essential element of the crime or is so
vague, indistinct or indefinite that the defendant is misled
or exposed to double jeopardy.”); State v. Wimberly,
459 So.2d 456, 458-59 (Fla. 5th DCA 1984) (“There
is a difference between an information that completely
fails to charge a crime and one where the charging
allegations are incomplete or imprecise. The former is
fundamentally defective. However, where the information
is merely imperfect or imprecise, the failure to timely file
a motion to dismiss under Rule 3.190(c) waives the defect
and it cannot be raised for the first time on appeal.... If
the information recites the appropriate statute alleged to
be violated, and if the statute clearly includes the omitted
words, it cannot be said that the imperfection of the
information prejudiced the defendant in his defenses.”)
(quoting Jones v. State, 415 So.2d 852. 853 (Fla. 5th DCA
1982)); Brewer v. State. 413 So.2d 1217, 1221 (Fla. 5th
DCA 1982) (en banc) (finding no fundamental error where
the deficiency of the charging document was not a total
omission of an essential element of the crime); Kane v.
State. 392 So.2d 1012, 1013 (Fla. 5th DCA 1981); State
v. Cadieu. 353 So.2d 150, 151 (Fla. 1st DCA 1977) (“The
law does not favor a strategy of withholding attack on
the information until the defendant is in jeopardy, then
moving to bar the prosecution entirely.”).
113] Florida does not view Apprendi type facts as within
the essential elements pleading requirement because
Apprendi-elements do not alter the offense itself (as
opposed to the punishment that can be imposed). The
different levels of punishment, under state law, do
not create separate offenses. Florida now adopts the
position that the requirements of the Sixth Amendment
regarding notice can be satisfied without necessarily and
precisely alleging Aonrendi-type elements in the charging
documents. See Deparvine; Grim v. Sec-'y Fla. Dep’t of
Coris., 705 F.3d 1284 (11th C.ir. 2013); Miller v. State,
42 So.3d 204 (Fla. 2010); DuBoise v. Slate. 520 So.2d
260 (Fla. 1988). Additionally, the Florida Supreme Court
has noted “it will be a rare occasion that an information

tracking the language of the statute defying the crime will
be found inefficient to *1273 put the accused on notice
of the misconduct charged.” Price. 995 So.2d at 405.
|14| Defendant's appeal of the technical-defect was
initiated under rule 3.800(a), as opposed to rule 3.800(b).
Accordingly, the asserted technical charging error must
be deemed waived by the defendant's lack of a
contemporaneous objection prior to the jury verdict and
before the sentence was imposed in 2003. To preserve
error for appellate review, a contemporaneous, specific
objection must be made during trial. Jackson v. State,
983 So.2d 562, 568 (Fla. 2008); Gore v. State. 964 So.2d
1257, 1265 (Fla. 2007). Further, the alleged pleading
insufficiency at issue here does not result in an “illegal
sentence” subject to correction at any time under rule
3.800(a). The Florida Supreme Court recognizes that
a defendant can waive the failure to precisely charge
grounds for a mandatory minimum under the “10-20Life” law. See Martinez: Nelson v. State. 191 So.3d 950
(Fla. 4th DCA 2016); Rolling v. State. 41 Fla. L. Weekly
.2016 WL 4723682 (Fla. 3rd DCA
D1906, — So.3d
Aug. 17, 2016); Connolly v. State. 172 So.3d 893 (Fla. 3d
DCA 2015); Bradley v. State. 3 So.3d 1168 (Fla. 2009).
The technical-defect challenge raised by the defendant
is also contrary to the “Criminal Appeal Reform Act
of 1996,” which provides that “[a]n appeal may not
be taken from a judgment or order of a trial court
unless a prejudicial error is alleged and is properly
preserved or, if not properly preserved, would constitute
fundamental error.” § 924.051(3), Fla. Stat. An issue is
not preserved within the meaning of the statute unless
it was “timely raised before, and ruled on by, the trial
court.” § 924.051 (l)(b) Fla. Slat., (Supp. 1996); see
Latson v. State. 193 So.3d 1070 (Fla. 1st DCA 2016)
(Winokur, J., concurring). Here, the defendant did not
raise any objection as to the technical insufficiency of
the Amended Information prior to the jury verdict.
Accordingly, fundamental error must be established to
maintain a viable argument on appeal.

Substantive-Defect Challenge
|15] |16| A charging document that “references a specific
section of the criminal code” sufficiently detailing “all
the elements of the offense” may support a conviction
where the pleading otherwise fails to include an essential

f.pj)
WESTLAW

; 'O’ 7 : :-i,.nisnn Reuters No claim to original U.S..Government Works.

10

Robinson v. State, 215 So.3d 1262 (2017)
42 Fla. L. Weekly D758

element of the crime. DuBoise v. State. 520 So.2d 260,265
(Fla. 1988); Figueroa v. State. 84 So.3d 1158, 1161 (Fla.
2d DC A 2012). However, “a conviction on a charge not
made by the indictment or information is a denial of due
process],]” and an indictment or information, that “wholly
omits to allege one or more of the essential elements of the
crime” cannot support a conviction for that crime. Gray,
435 So.2d at 818. This is a “defect that can be raised at
any time-before trial, after trial, on appeal, or by habeas
corpus.” Id.
[17] Defendant also claims that his conviction and
sentence are illegal, as the .Apprendi factor of “great bodily
harm” was not charged in the Amended Information and
found by the jury beyond a reasonable doubt. Relying
again on Daniel, the defendant argues that a jury verdict
cannot cure any alleged deficiencies in the charging
document. He also asserts that the jury did not find all
sentencing factors under section 775.087, Florida Statutes,
in violation of Apprendi. The trial court expressly denied
defendant's argument that the Amended Information did
not precisely track the enhancement statute—finding that
even though the language is not precise, it is clear, and
the jury found beyond a reasonable doubt that defendant
discharged a firearm causing “great bodily harm.”
*1274 Here, the trial court cited Gentile v. State. 87
So.3d 55 (Fla. 4th DCA 2012), in denying defendant's
rule 3.800(a) motion. In Gen file, the information alleged
the defendant committed the offense with a deadly
weapon. Id. at 57. The Fourth District determined that
by inference, the jury's verdict found the defendant guilty
of using a deadly weapon because it found him guilty “as
charged in the information.” id. Thus, the verdict form's
reference to the information was sufficient to support
Gentile's sentence reclassification.
[18[ The Florida Supreme Court has consistently held a
jury verdict may “cure” an Apprendi defect in a stateissued information. See Galindez v. State. 955 So.2d 517
(Fla. 2007); Miller; Price; Grim. Post-2006, failure to
submit a sentencing factor to a jury is no longer considered
structural error. Such failure is subject to harmless error
analysis, if the error is of a fundamental nature. Recuenco.
548 U.S. at 221, 126 S.Cl. 2546. Here, any defect in the
charging document, namely failure to allege “great bodily
harm” as opposed to “bodily harm,” was cured by the
victim's testimony at trial and the jury verdict. The jury
found the defendant guilty as charged, which included

the factual finding the defendant shot the victim. We find
this sufficient to satisfy “great bodily harm” as a required
element of the sentencing enhancement.
If a pleading should require an identification of the
particular injury, additional detail is commonly seen as
flowing from the factual specificity requirement rather
than the essential elements requirement. See United States
v. Gavle. 967 F.2d 483 (11th Cir. 1992). Here, the
record on appeal confirms Count I of the Amended
Information charged that defendant “did attempt to
kill ... by shooting ... with a firearm ... causing bodily
harm ... did use a deadly weapon ... did possess a
firearm ... did discharge a firearm ... did cause injury ...
in violation of Section 775.087, Florida Statutes, Section
784.045(1 )(a)(2), and Section 782.04(2), Florida Statutes.”
We agree with the State. The fact the defendant shot the
victim, coupled with the statutory citation, was sufficient
to give notice of the “great bodily harm” element of
section 775.087, Florida Statutes. See Coke v. State,
955 So.2d 1216, 1217 (Fla. 4th DCA 2007) (concluding
that an information, which charged the defendant with
aggravated battery by “shooting [the victim] in the legs,”
was sufficient to advise the defendant of the “great
bodily harm” element, as language was more specific than
“simply alleging great bodily harm”); Nelson v. State. 191
So.3d at 952-53 (concluding the information indicating
that the victim was “shot” was sufficient to provide notice
of the “great bodily harm” element).

V. Fundamental Error & Harmless Error
[19] [20[ A review of the Amended Information and the
record demonstrates fundamental error was not present
because: 1) the Amended Information did not omit an
essential element of the charged offenses; 2) the Amended
Information referenced section 775.087, Florida Statutes,
in the charging document; 3) the defendant had notice
the State would be seeking a reclassification of his
conviction under section 775.087, Florida Statutes, based
on the defendant's personal possession of a firearm
during the commission of the underlying offenses; and
4) the defendant claims no surprise or prejudice in the
preparation or presentation of his defense and establishes
no other grounds of actual prejudice.
The Florida Supreme Court has clarified that, although a
specific finding in an interrogatory on the verdict form is

fM)
WESTLAW

•

■■o': '' Tmyiisnp Reuters No claim to original U.S Government Works.

11

Robinson v. State, 215 So.3d 1262 (2017)
42 Fla. L. Weekly D758

preferable, what is ultimately required is a “clear *1275
jury finding.” State v. lseley. 944 So.2d 227. 231 (Fla.
2006). The Court emphasized:
[A]ll that is required for the application of a
reclassification or enhancement statute to an offense
is a clear jury finding of the facts necessary to the
reclassification or enhancement ‘either by (1) a specific
question or special verdict form (which is the better
practice), or (2) the inclusion of a reference to [the fact
necessary for reclassification] in identifying the specific
crime for which the defendant is found guilty.’
Gentile. 87 So.3d at 57 (Fla. 4th DCA 2012) (quoting
Sanders v. State. 944 -So.2d 203. 207 (Fla. 2006) (quoting
lseley, 944 So.2d at 231)).
[211 The test for granting relief based upon a substantivedefect in the charging document is “actual prejudice.”
Gray, 435 So.2d at 818. Because the defect did not
pertain to an essential element of the crime, the defect
is fundamental only if the defendant demonstrates that
he was denied due process. In other words, because the
defendant failed to make a contemporaneous objection,
the defect was not fundamental error unless he is able
to demonstrate insufficient notice that a conviction for
second-degree murder and possession of a firearm by a
convicted felon could subject him to a reclassification
under section 775.087, Florida Statutes (2002).
[22] “An illegal sentence subject to correction under rule
3.800(a) must be one that no judge under the entire body
of sentencing laws could possibly impose under any set
-. 2017 WL
of factual circumstances.” Martinez at
728098, at *4 (citing Wright v. State. 911 So.2d 81,83 (Fla.
2005); seeu ualso Carter v. State. 786 So.2d .1173, 1181
(Fla. 2001). The illegality must be of a fundamental nature
and clear from the face of the record. Wright, 911 So.2d
at 83-84. We find no such fundamental error.

Prior decisions of this Court in Boyce v. State. 202 So.3d
456 (Fla. 1st DCA 2016), and Arnett v. State. 128 So.3d
?

87 (Fla. 1st DCA 2013), are factually distinguishable.
Furthermore, clarity has been provided by the Florida
-,2017 WL 728098, at
Supreme Court in Martinez at
*4.

Conclusion
In the wake of Galindez. Deparvine. and Martinez,
the menu options for a defendant's Apprendi-error
appeal have been limited. Technical-defects in a charging
document are no longer “structural” constituting per se
reversible error. A defendant's failure to raise a timely
objection to a charging document's technical insufficiency,
prior to a jury verdict, results in waiver of a pure pleading
challenge. Subsequently, a defendant may only appeal by
arguing constitutional error, which is subject to harmless
error review.
Defendant failed to properly preserve the technicaldefect claim, and his “illegal sentence” challenge is not
cognizable under a rule 3.800(a) motion. His substantive
challenge failed to establish fundamental *1276 error.
Alternatively, even if the Apprendi defects asserted by the
defendant constitute a constitutional violation, we find the
error to be harmless.
For these reasons, we affirm the trial court's denial of
defendant's rule 3.800(a) motion.

WOLF and BILBREY, J.J., CONCUR.
All Citations
215 So.3d 1262, 42 Fla. L. Weekly D758

Footnotes
It is important to distinguish between “enhancement” of penalty laws and “reclassification” of offense laws. Admittedly,
1
in some instances such a distinction may be without a difference in its practical effect, but the legislature has chosen to
make a distinction. Enhancement is commonly associated with the province of the judge in sentencing, as in the case of
habitual offenders, section 775.084, and the wearing of a mask, section 775.0845. Reclassification speaks to the degree
of the crime charged, and in legislative application, appears to attach at the time the indictment or information is filed and
not at the time a conviction is obtained. Section 775.081 “classifies” felonies. Section 775.087(1) “reclassifies” all felonies
with specified exceptions when certain conditions attend to the commission of the crimes. Cooper v. State. 455 So.2d
588, 589 (Fla. 1st DCA 1984). Subsections (2) and (3) of section 775.087, Florida Statutes, “enhance” the penalty.

(ai) bft
WESTLAW *4 A! 7 '

v.sop

No ou-urnio original U S Government Vtfcrks

12

Robinson v. State, 215 So.3d 1262 (2017)
42 Fla. L. Weekly D758

2
3

In Florida, a capital crime must be charged by indictment; all other felonies may be charged by information. See Fla.
CONST. Art. I, section 15(a). If the Indictment Clause applied to the states, Florida could not prosecute non-capital
felonies by information.
In Arnett, the defendant was charged with possession of a firearm by a convicted felon. 128 So.3d at 87. The information
did not charge "actual possession” of a firearm (key element of the underlying charge), nor did it charge the sentencing
reclassification or enhancement. !d at 88. This Court reversed on the basis that the "enhancement must be clearly
charged in the information.” id (emphasis added). In Bovce. this Court reversed an enhanced sentence when the
information failed to charge “actual possession” of a firearm despite the underlying burglary crime involving multiple
defendants. 202 So.3d at 456. The information failed to detail whether the defendant was being charged under the
principal or accomplice theory and was silent with respect to the State's intent to seek the enhancement sentence; The
State did not provide notice of its intent to seek sentencing enhancement against Boyce until after the jury trial, id

-a
End of Document

© 2017 Thomson Reuters. No claim to original U.S. Government Works.

:

$

£3 ua
WE5TLAW

20* ? Thomson Reuters. No claim to original U.S. Government Works.

13

dnc.(i) \
^loarbA guifotr/i£. fiut&xi'£a&zAIs* Sclb-ln,
RobtnStfrx VI
l£XMVt$37
ReVi&J D&ciufl^ dfid-fcXcLtoa cL&nleA^ AdficLl

~$tidjjxvL eiots T£Sd££- i:vSt (X) dinJ, ’tiwxL&T) l
Rt* IvW p&.lRo6m£6&± VkigX2&a%<%UM&AJ
QixPrcyyuL
c “f Xi&rtdU., Cm&C. (X>\ £CL7.''
j-£zj£ir iftlousneJi /Oa£e. tiwtfX€£'(s)<,
017.’*’
'
~Q£> 7- - df" 0<3 ^Lo3f A >OQO£-£T 1^rSlaia&i

3Ul^HeXttX htzfwizd/ RgIqi&4m Vl
%nil &}X» ULtfUeXZ a±

(S-'O

«r

EXHiBiT-(c)
^fiuk^iffldnL o4 Ui£ %S, fauA. JP/tffeal

+ e & &&&

1-*

0

Case: 19-12243

6

i

Date Filed: 07/10/2019

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1 .uscourts.gov

David J. Smith
Clerk of Court

July 10, 2019
*«•

Ivory Lee Robinson
Cross City Cl - Inmate Legal Mail
568 NE 255TH
PO BOX 1500
CROSS CITY, FL 32628

%
C

Appeal Number: 19-12243-F
Case Style: In re: Ivory Robinson
District Court Docket No: 1:18-cv-00020-MW-CAS
The enclosed order has been entered. No further action will be taken in this matter.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Dionne S. Young, F
Phone #: (404) 335-6224
Enclosure(s)

■

i

•f

:

Case: 19-12243

Date Filed: 07/10/2019

Page: 1 of 6

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-12243-F
IN RE: IVORY ROBINSON,
Petitioner.

Application for Leave to File a Second or Successive
Habeas Corpus Petition, 28 U.S.C. § 2244(b)

Before: MARCUS, WILSON and JULIE CARNES, Circuit Judges.
BY THE PANEL:
Pursuant to 28 U.S.C. § 2244(b)(3)(A), Ivory Robinson has filed an application seeking an
order authorizing the district court to consider a second or successive petition for a writ of habeas
corpus Such authorization may be granted only if:

previously unavailable; or
(B)® the factual predicate for the claim could not have been discovered
previously through the exercise of due diligence; and
(iQthe
evidence as a
constitutional error, no reasonable factfinder would have
foimTfoe applicant guilty of the underlying offense.
“The court of appeals may authorize the filing of a second or
rima facie showing that
application only if it determines that the application makes a p

28 U.S.C. § 2244(b)(2).

successive

Case: 19-12243

Date Filed: 07/10/2019

Page: 2 of 6

the application satisfies the requirements of this subsection.” Id. § 2244(b)(3)(C); see also
Jordan v. Sec'y, Dep't of Corrs., 485 F.3d 1351, 1357-58 (11th Cir. 2007) (explaining our
determination that an applicant has made a prima facie showing that the statutory criteria have
been met is simply a threshold determination).
In March 2006, Robinson filed his original § 2254 petition, which the district court denied
with prejudice in June 2008. He raised two ineffective-assistance-of-counsel claims in that
petition that are relevant to his instant application. First, he asserted that his appellate counsel
failed to argue that he had been convicted of an uncharged offense because “attempted
second-degree murder” had been listed only in the heading for the relevant count, while the body
of that count described the offense of “aggravated assault” He also claimed that his appellate
counsel failed to argue that his 25-year mandatory-minimum sentence had been unlawfully
imposed because the jury had not specifically found the aggravating sentencing factor of “great
bodily harm,” as such harm had not been alleged in the charging document
In May 2012, Robinson filed his first application for leave to file a second or successive
§ 2254 petition (the “first successive application”), in which he alleged that he had been convicted
of the uncharged crime of “attempted second-degree murder” because the charging document had
not included an allegation that he had intentionally acted in a way that would have resulted in the
d<>gth of the victim, which was an element of the offense. He argued that his conviction for an
uncharged offense was a violation of his right to due process under the Fourteenth Amendment,
per Jackson v. Virginia, 443 U.S. 307 (1979). Similarly, he argued that the sentencing court
erred by impeding a sentence pursuant to a conviction that was based on the defective charging
document In June 2012, we denied Robinson’s application because he had not alleged the

2

,

Case: 19-12243

4

Date Filed: 07/10/2019

Page: 3 of 6

existence of a new rule of constitutional law or newly discovered evidence sufficient to grant his
application.
In his instant application, Robinson indicates that he wishes to raise three claims in a
second or successive § 2254 petition, though he does not specify whether those claims are based
on a new rule of constitutional law or newly discovered evidence. First, he argues that he was
convicted without due process, as the charging document was “fundamentally defective” because
it failed to allege the essential elements of attempted second-degree- murder or to refer to the
specific section of the Florida code that detailed the elements of that offense, in violation of the
Fifth and Fourteenth Amendments’ prohibition on convictions for uncharged crimes. In support
of that argument, Robinson cites to Cole v. Arkansas, 333 U.S. 196 (1948), and Thornhill v.
Alabama, 310 U.S. 88 (1940). Second, he asserts that the state trial court unconstitutionally
imposed a mandatory-minimum sentence, in violation of Apprendi v. New Jersey, 530 U.S. 466
(2000) (holding that facts that increase the range of penalties to which a criminal defendant is
exposed are elements of the crime that must be submitted to the jury), because neither the
charging document nor the jury’s verdict referenced whether he actually possessed the firearm
that formed the basis for the sentencing enhancement, in violation of the Fifth, Sixth, and
Fourteenth Amendments. Third, he claims that the jury’s verdict did not specifically indicate
that it had found that his discharge of die firearm caused “great bodily harm,” as required for the
application of the sentence enhancement under Apprendi and Alleyne v. United States, 570 U.S. 99
(2013) (citing Apprendi and holding that any fact that triggers a mandatory-minimum sentence is
an element of the crime that must be submitted to ajury, insofar as that fact increases the range of
penalties to which a defendant is exposed).

3

Case: 19-12243

t •
Date Filed: 07/10/2019

Page: 4 of 6

A claim presented in an application for leave to file a successive § 2254 petition that was
presented in a prior application that was denied “shall be dismissed.” See 28 U.S.C. § 2244(b)(1);
In re Everett, 797 F.3d 1282,1288 (11th Cir. 2015) (stating that a state prisoner’s original § 2254
petition is a “prior application” for the purposes of § 2244(b)(1)). A claim is the same, for the
purposes of § 2244(b)(1), when the basic gravamen of the legal argument is the same. In re
Everett, 797 F.3d at 1288. In other words, where the core factual allegation and core legal basis
for a f-laim in an instant petition or application is the same as that raised in a prior petition or
application, the claims are the same for the purposes of § 2244(b)(1). See In re Hill, 715 F.3d
284,294 (11th Cir. 2013) (holding that a petitioner’s instant and prior claims were the same for the
purposes of § 2244(b)(1) where they were both reducible to the claim that his execution would
violate the Eighth and Fourteenth Amendments). New supporting evidence or legal arguments in
support of a prior claim are insufficient to create a new claim. In re Everett, 797 F.3d at 1288.
Section 2244(b)(l)’s requirement that a repetitious claim be dismissed is jurisdictional. In re
Bradford, 830 F.3d 1273,1275 (11th Cir. 2016).
Here, we lack jurisdiction to entertain Robinson’s first claim because he raised a similar
Fourteenth Amendment due-process claim based on his allegedly defective charging document in
his first successive application. Although that claim focused on the charging document’s failure
to allege that he acted with the requisite intent for Florida attempted second-degree murder, that
argument is reducible to the claim that the charging document’s failure to allege each element of
the offense constituted a due-process violation. Therefore, it is the same for the purposes of
§ 2244(b)(1), and we lack jurisdiction to review it In re Everett, 797 F.3d at 1288, In re Hill, 715
F.3d at 294.

4

* *

Case: 19-12243

.

1

Date Filed: 07/10/2019

Page: 5 of 6

We also lack jurisdiction to address Robinson’s second claim concerning the imposition of
9

a mandatory-minimum sentence based on a conviction stemming from a defective charging
document because it is essentially the same due-process claim he raised in his first successive
application. Although Robinson has not previously raised his argument that the jury’s failure to
specifically find that he possessed a firearm renders his mandatory-minimum sentence
unconstitutional under Apprendi, that claim is nothing more than a new legal argument supporting
the same due-process claim he raised in his original § 2254 petition—that his sentence was
enhanced based on an element of Florida attempted second-degree murder that was not found by
the jury because the factual basis for that element was not alleged in the charging document. That
new legal argument cannot transform Robinson’s previously-raised due-process claim into a new
claim for the purposes of § 2244(b)(1). In re Everett, 797 F.3d at 1288. Thus, we lack
jurisdiction to consider Robinson’s second claim.
For the same reasons, Robinson’s third claim—that he was convicted of an uncharged
offense because the charging document did not allege that the discharge of the firearm caused the
requisite harm—is reducible to the due-process claim that he raised in his first successive
application. The fact that he originally argued that the charging document failed to allege that he
possessed the required intent, as opposed to his instant claim that the charging document failed to
allege that his discharge of the firearm caused the required harm, does not change the feet that both
arguments reduce to a due-process claim arising from the charging document’s failure to allege an
element of the offense for which he was convicted. Therefore, because Robinson’s second and
third claims do not constitute “new” claims for the purposes of § 2244(b)(1), we lack jurisdiction
to address them. In re Everett, 797 F.3d at 1288; In re Hill, 715 F.3d at 294; see 28 U.S.C.
§ 2244(b)(1); In re Bradford, 830 F.3d at 1275.
5

Case: 19-12243

t *

• 4

.

Date Filed: 07/10/2019

Page: 6 of 6

Accordingly, his explication for leave to file a second or successive motion is hereby
DISMISSED.

m

6

l)ocurrli'xiI&»

EXMlBfls-(t))
J\0lzruled Xfl^arMakt

♦ » 4»

Oury'S Tnstruc'fctWi.
J ury-s Vdrcl/tzt.

•

• «»«.#

» fr •»

^

Awend-del IJuJ^Metib. .
5 aikjdi/hdJia^.

..... 1-2.,3

«*

<»**•****

;p- 9

!»>

* fi 0- 0- ♦<•<#’•**

9

4»

.*•

QB

t*

<?

'i» O <9

#00000 «r-i® » ^9 a 4» *»

H-T
Ifi

7-to

. p
!

■

• ♦

- - *»

p

&u

h

K

:■ i

■jm -tttp. cmcurr court of the eighth judicial ciRCurr
IN AND FORALACHUA COUNTY, FLORIDA
Case-Number. 01-2002-02039-CFA

STATE .OF FLORIDA
Plaintiff,.
•

DIVISION ffl

vs.

IVORY LEE ROBINSON, B/M, 07/19/1947;
CHARGES:
ATTEMPTED SECOND DEGREE MURDER •
I)
•
POSSESSION
by felon ■ ’•
• V) • , * * ,Of firearm
'

•

i

t *

.»

AMENDED INFORMATION
r. %

TN THE NAME AND BY THE AUTHORITY OffTHE STATE OF FLORIDA?
/

T:

_ ,

.

. - WHUAMP. CERVONE;STATEATTORNEY.fot the Eighth, Judidial Circuit *
prosecuting for the State ofFIorida, under oath, alleges by informahon>that IVORY LEE
ROBINSON, in Alachua County, Florida, on or about May 26,2Qp2/Uriawfiillx andby .an act
imminently dangerous to-ahothe^-ani'evincmg-a depraved mind regardless ofhuman' life,but
without a'premeditated design to'effect the djeath of any particular person, did attanptto loll and - ; '•
murdw VimXIAM FRANK MABREY, by shooting Vmiiaiu Franlc Maybrey, uhuman being,.
with a firearm, and/or IVORY LEE ROBINSON didunlawfvdly.commit abatteryupon
WILLIAM.FRANK MABREY bynctnsllyand intentionally touching or striking said person
against said person’s will, or causing bodily harm to WILLIAM FRANK. MABREY and in the
commission ofsaid battoy did use a deadly weapon, to-wit: 357 Llama Comanche Stager
InductHeg Revolver SerialNumber S830231, and in the courseorcommissicn'orEaidoHenses, Ivory.Lee Robinson, did possess a firearm; to wit: ..3571Jama Comanche StogerIndustries
RevoiverSerialNumber S830231j andin the course orcommissionofsaid offenses, Ivory Lee
Robinson did discharge a fiieann; Jto wit;.357 Llama Comanche Stager Industries Revolver.
SerialNumber S83023; and asa resultef the discharge of said fixearm,Tvory Leo Robinson did . cause an injury to WILLIAM FRANK MABREV, in violation ofS oction 775.087, Florida
•Statutes, Section 784.045(l)(a)(2), and Sefcdoa782.04(2). Fiorida’Statutes. (L10)

: .t

COUNT It And WILLIAM P. CERVONE, STATE ATTORNEY for the Eighth Judicial
Circuit, prosecufingfor the State ofFIorida, under oath, fbrther alleges,by information that .
IVORY LEE ROBINSON, in Alachua County, Florida, on or about May26,2002,.havingheen
gonvicted of a felony in the courts ofthis state or of a crime, against the.United^States ofAmerica
which is designated as a felony or convicted of sn offense in another,state, tenitory or country
punktrahte hy imprisonment fora termcxceeding-one year, did own or have in his care, custody, ,
actual possession or control,:? certain firearm, to-wit: 357 Llama Comanche Stoger lndustries
. Revolver Serial Number S830231, contrary to Section 79033 (1), Florida Statutes! (L5). .
‘FIIEDJNOPEN COURT

07-

6ffl0fl52-

27

ay

gCjp

Lfl.C.

r
l

o

p
I

5
:

••• •
*«

•.

i1

J*

.*.

. STATE OF ELOiODA
COUNTY OF ALACHUA

i
t

X

Personally appeared before me the undersigned BRIAN S. KRAMER Assistant State
Attorney, Eighth Judicial Circuit ofFlorida, who, being first duly sworn, says that theallegations
set forth, in the'foregoing INFORMATION are based upon fhcts .that have been swomto asitiue, '
and whichif true,would constitute the offeaso therein charged# and is'filed in. good faith, and
does hereby.certifythat he/she has received testimony under oath, from thematerial-witness or
witnesses forlhe offense.
. WttJJAMP- CERVONE •
• ' STATEATEbRW. ’■ U

\

BRIAN S. KRAMER
* Assistant StatS Attorney
Florida Bar No.: 0981265

.

The foregoing instrument was acknowledged before me this /i7^~dayof July, 2003 by
BRIAN S. KRAMER, Assistant State Attorney, whd is personally known to me and who did
takeahoadi.
•
. •
•
.
'

NOTARY,

KTOGUeectif. carat unss

AK^nmot
MHnrtMiMwciftc -

:

r-

• ••

r

pq
28

h)

)>

F.S. 777.04(1) ATTEMPTED SECOND DEGREE MURDER
,'

Before you can find the defendant guilty of an Attempt Second Degree Murder, the State
must prove the following two elements beyond a reasonable doubt:
1.
IVORY LEE ROBINSON intentionally committed an act which would have
resulted in the death of WILLIAM FRANK MABREY except that someone prevented IVORY
LEE ROBINSON from killing WILLIAM FRANK MABREY or he failed 2.
The act was imminently dangerous to another and demonstrating a depraved mind
without regard for human life.
An "act" includes a series of related actions arising from and perfbrmed-pursuant to a single"
design or purpose.
An act is "imminently dangerous to another and demonstrating a depraved mind" if it is
an act or series of acts that:
1.
a person of qrdinary judgment would know is reasonably certain to kill or do
serious bodily injury to another, and
2.

is done from ill will, hatred, spite or an evil intent, and

3.

is of such a nature that the act itself indicates an indifference to human life.

In order to convict of Second Degree Murder,. it is not necessary for the State to prove the
defendant had an intent to cause death.
It is not an attempt to commit Murder in the Second Degree if the defendant abandoned
his attempt to commit the offense or otherwise prevented its commission, under circumstances
indicating a complete and voluntary renunciation of his criminal purpose.
If you find that the State has proven that the defendant committed the crime of Attempted
Murder in the Second Degree, you must decide whether the State has proven beyond a
reasonable doubt that the defendant possessed, discharged, or injured William Frank Mabrey by
the discharge of a firearm. To aid you in doing so, I will now define the term “firearm” "Antique
firearm" and “possession” for you.
A "firearm" is legally defined as-any weapon (including a starter gun) which will, is
designed to, or may readily be converted to expel a projectile by the action of an explosive; the
frame or receiver oFany such weapon; any firearm muffler or firearm silencer; any destructive
device; or any machine gun. The term "firearm" does not include an antique firearm unless the
antique firearm is used in the commission of a crime.
"Antique firearm" means any firearm manufactured in or before 1918 (including any
matchlock, flintlock, percussion cap, or similar-early type of ignition system) or replica thereof,

rS-erp-H- (3)

&0O6O78

■>

'+

)

)

1

«•

IN THE CIRCUIT COURT OF THE EIGHTH JUDICIAL CIRCUIT
IN AND FOR Alachua COUNTY, FLORIDA
STATE OF FLORIDA
Plaintiff,

Case Number: 01-2002-CF-002039-A
DIVISION m

vs.
IVORY LEE ROBINSON
Defendant.

i ■

VERDICT
case:

WE THE JURY, find as follows as to the defendant IVORY LEE ROBINSON in this
X.

AS TO COUNT I:
1.
2.
3.
4.
5.
6.

The defendant is guilty of Attempted Second Degree Murder, as charged in
Count I of the Information.
The defendant is guilty of Attempted Voluntary Manslaughter, a lesser
included offense.
The defendant is guilty of Aggravated Battery, a lesser included offense.
The defendant is guilty of Battery, a lesser included offense.
The defendant is guilty of Assault, a lesser included offense.
The defendant is not guilty.

If you find the-defendant guilty of any of the above offenses you shall check one of the
following:
a)
b)
c)

.

The defendant possessed a firearm.
The defendant possessed and discharged a firearm.
The defendant possessed and discharged a firearm, and by the discharge of said
firearm caused injury to another person.
The defendant did not possess a firearm.
d)

AS TO COUNT ff:
>^i.
2.

The defendantis guilty of Possession of a Firearm by a Convicted Felon, as
charged in Count II of the Information.
The defendant is not guilty.

If yon find the defendant guiltyuf the above offense you shall check one of the following:

(H)

FILED IN OPEN COURT
Si I,

4m

** 1

. L

t

)

-

Vv )

r

a)
* <>

The defendant was in actual possession of a firearm.

b) ____ The defendant was not in actual possession of a firearm.

So say we all, this
Florida.

I

day of August, 2003, at GAINESVILLE, Alachua County,

1 ,

Foremi

\ v,

(E)

r-

o

n

RE
v
) IN OFFICIAL RECORDS
INSTRu.vlEfiT# 2905891
1
PG(S)

IN THE CIRCUIT COURT OF
THE BGHTH JUDICIAL CIRCUIT
IN AND FOR ALACHUA COUNTY. FLORIDA

1/28/20154:33 PM
BOOK 4327 '
PAGE 295
J. K. IRBY
Cleric of the Court, Alachua County, Florida
ERECORDED
Receipt# ■ 636614
Doc Stamp-Mort: $0.00
Doc Stamp-Deed: $0.00
Intang. Tax: $0.00

[J Community Control Violator
{J Probation Violator
STATE OF FLORIDA
VS

~

Hv£>^\j Lee Kobfn<6on

Cr

oa>~C{L' QO^jA^

Case:
DhrisionHF1^

£3234^%%£iPku>
a^dAof£c/roe. ©n (WtVT

JUDGMENT
^ohfnSQQ. being personally before this court
and having

L
□ entered a plea of gmlty to the following crime(s)
□ entered a plea of nolo contendere to the following crime(s)
□ admitted to violating probation
[J been found in violation of probation at hearing

Crime

Count

Degree of
,Crime

Offense Statute
Nurober(sJ

X

MWA nwW

TT7.oMf'/ss!

35Z

Q&e&icp Tia&aJm Qj_
(icovicwcs ^£.\or|
r

a£~

1^0. S>3

^gndno cause being shown why the defendant should not be adjudicated guilty, IT IS ORDERED THAT the defendant is hare
^ABJUDICATED GUILTY of the above crime (s)-.
□ and good cause being shown: IT IS ORDERED THAT ADJUDICATION OF GUILT BE WITHHELD.
The qualifying offender per F.S. M3.325(f M5) is required to submit an FDLE-approved blood or biological specimen. F.S.
843.325(7). Unless the defendant has been declared Indigent by the court, he/she shall pay the actual costs of collecting me
approved biological specimens required under FS. 643.325.

DONE AND ORDERS) in Open Court in GainesviBe, Alachua County. Florida this

davof^&QH

^ 2lj/S

1*1

Judge of the Circuit Court

Hied in Open Court

1

20___by.__________________________D.C:> /

rs?

o

I HEREBY CERTIFY THAT A COPY OF THIS Judgment was furnished by U .S. Mai! and/or hand delivery atAjesigifess^jf roc
counsel for the state and defense/defendant pro se this_____ day of---------------------.20—
ry>

BY Deputy Clerk:___________

^

Ip 2 1
•

«

ro

OJ

-44-

48-

(Q

OTf

/\r
;i

CO
CO

H
-^r

r
. ,

Probation Violator ,
__C.o’naun--1ty Control Vi
•Defehdanti

r
__ Resentence
ator

vJLmfljJbdansmSENTENCE
(As to Counf'T T.)

a-%3&:££«mk---Division?

^rn —_

The defendant, being personally ibe^re this-court*acCoopanled by the
defendant-s.attorney of record,
and having been adjudicated guilty herein, and the court having given the
defendant an opportunity to be heard and to offer Batters 1n mitigation of
sentence, and to show cause why the defendant shauLd not be sentenced, as
provided by taw, and no cause being shown,
(Check one if applicable)
deferred•imposition
and the court having on Cdate)
C_3
of sentence until this date
and the.court having previously entered a judgment 1nth1s-case on
C:.3
(date)
' •
• uch resenteiices the defendant
and the court having placed the defendant on probatlon/coaaurtlty
Cl 3
■ control and having subsequently revoked the defendant’s
probation/coaaunity control
It Is thesentence of the.court that:
'
pursuant to•section '775.083,
C_1
The defendant pay a fine of
Florida Statutes, plus
.« a* the 5# surcharge=required by'
y section 960.25, Florida Statutes.
_ .
CJ3
The defendant Is hereby coafcitted to the custody of the
Department of Corrections.
the defendant Is.hereby coaalttfcd to the custody of-the
t_3
Alachua County Department of Corrections.
.......
The defendant-Is sentenced'«s a youthful offender in accordance with
C_3
section 958.04, Florida Statutes.
To be Imprisoned (check onerUnaarked sections are Inapplicable)

&
Rj
l\"l X
Sale SENTENCE SUSPENDED
C_3

----a period of-----

for
subject to conditions set forth-in this order

■;
■

-

"T

*

If ’"split*' sentence coaplete the appropriate paragraph
Followed by a period of
______oh profcatlon/coaaunity. control
C_D
under the supervision of the Department of Corrections according to
the terns and conditions of supervision set forth*In « separate order

entered herein.
C-3

•

However, after serving a period of-----------------------------laprlspnaent:In
. '
~
the balance of the sentence shall be suspended
and1 the- defendant shall'be placed on probatlon/cowauiilty 'Control-for
a period of
,
L ;
under.supervision of the Department ot
Corrections according to the terns'and conditions of
probatlqn/coamunity control set forth in a separate order entered
herein.

^

In the event the defendant is ordered to-serve additional split sentence,
all incarceration portions shall be satisfied before the defendant begins
service ol the supervision terms.
CJ^3

Jail Credit - It is •further ordered that the defendant shatl-be
__'days as credit for tiae Incarcerated before
allowed a total of
Inpesltlon of this sentence.

ConsecutIve/Coocurrent as to Other Counts - It is further ordered that the
sentence Imposed for this count shall run (check one) ------- consecutive to
rnnr

ul «-ti

——*■ -*-

(~i)

“* **** “

0
CD
CD

r
. ._' probation Violator ,
ComnuiHty Control VI
-Defendant:

r
__ Resentence
stor

&?&
SENTENC£-_
(As to CauntJAp.)

Di vl sion? '

ir I iMI

is-M
sentence, and to show cause why the defendant should not be sentenced as
provided'-by law,"and no cause being shown,
(Check on* If applicable!
^__deferred Imposition
and the court hawing on (date)
C-3
ana*th^court-having previously entered a Judgment• In thls case on
C_3
(date)
• . "
^ v__now rtsentiiices the defendant
and the court~having.placed-the defendant on.probation/eommunlty
C_3
control and having-subsequently revoked the defendant's
probation/community'control '
It-Is the sentence of the court thats
pursuant to- section-• 775.083,
The defendant pay a fine pf.S,
C_3
the
5S surcharge<required by
,
as
Florida Statutes, plus-Sll.i'
, section 960.25, Florida Statutes.
, • . ..
Zjf- The defendant -Is hereby coemitted.to the custody of‘the
Department of Corrections.
....

C_3

The defendant.Is hereby.connltted to the custody of.the

t_3

Alachua County Department of Corrections.
.
.
The defendant Is sentenced-as a youthful offender In accordenee ulth
section 958.06, Florida Statutes.

To be Imprisoned (check one? unmarked sections are Inapplicable)

C^j

For a tern of natural:life.

C*J
C_3

For a ten* of-------------- ------- -—Said SENTENCE SUSPENDED for a period of -----

....

•if-

subject to conditions set forth.In this order

If ."solif sentence comptete the'appropriate para,graph
,
. .
,
Followed by a period of .i.....:-------- on probatlbn/eoaaunlty control
1-3
under the supervision of the Department of Corrections according to
the terns and conditions of.supervision set; forth:in’a separate order
C_3

rttt.

and the'defendant'shall be placed on probatlon/commOnlty control, for
a period of
. •
under supervision of the Oepartaent of
Corrections according to the teras and'condition* of
profcatlon/coanunlty control setforth In'a separate order entered .
herein.
In the event the defendant Is ordered to serve add!tional* split Sentence,
all Incarceration portions shall be satisfied before the defendant begins
service of the supervision terms.
rv3^

Jail'Credit - It is.further ordered that the defendant shall be
atlcued a total of
. days as credit for time Incarcerated before
Imposition of this senttence.

ConsecutIve/Concurrent'as to Other Counts - It Is further ordered th»t the
sentence Imposed for this count shall run (check one) —consecutive to
concurrent with the sentence set forth in count —I-----of this case.

(%)

-3€-

r .
o

o
o

O
O

o

r
(yV—

v^JLo?>is|____

Defendant; i

a s e Nueber:__
SPECIAL PROVISIONS

(As to Count
By appropriate notation/ the following provisions apply to the sentence iiposed;
cld^ir eariT-*!^ further ordered that the 3*year Bininum iopris onaent
C* provision of section 775.087(2), Florida Statutes, vs hereby imposed for
the sentence specified in this count.
r l orufl Trafficking *-■ It is further ordered that the---- ------ mandatory
min inum iaprisonnent.provi sion of section 893.135(1), Florida
.a u es,
hereby imposed for the sentence specified in this count.

s

C_3
Florida Statutes, is hereby imposed for the sentence specified in this count
[ 3 Habitual Felony Offender - The defendant is adjudicated a ha)?i*daltiJ*i0I!£

3
V

findings by the court are set forth in a separate order or stated on the
record in open court.
C J Habitual-Violent Felony Offender - The defendant is ■d*“fJ**'**J * h?!*1t,“ 1
" violent felony offender and has been sentenced to an extended tera 1 n
accordance with the provisions of ses tion 775.084 (4Hb>, Florida. Statutes.
A niniauB tern of
year(s) aust be served prior to release. The requisite
JiSdlnS of the court are set forth in a separate order or stated on the
record in open.court.
r l Law Enforcement Protection Act - It is further ordered that the defendant
' Shall serve** minimum of ___ years before release in accordance with section
775.0323, Florida Statutes.
C 3 Capital Offense - It, is further ordered that the defendant shall serve no
less than 25 years in accordance with the provisions of section 775^082(1),
Florida Statutes.
r 3 Short-Barreled Rifle, Shotgun, Machine Gun - It is further ordered that the
- i-Jear ainin.ua provisions of section 790.221(2), Florida Statutes, are
he r eby imposed for the sentences specified in. thi s count*
t 3 Continuing.Criainal Enterprise - It is further ordered that the 25-year CO
minimus sentence provisions of section 893.20, Florida Statutes, r
co
hereby imposed for the sentence specified in this count.

C 3 Prison Credit - It is further orderd that the defendant be allowed credit
for all time previously served, on this count in the Department of
Coorrections prior to resentencing.

cj ssis

consistent with this provision is by separata order.

C_3 Sexual Offender - It is tur ther ordered that the Cefendant be declared a
sexual offender as defined in 943.04V5.74'4.60 6. and 944*07. Florida Statutes

c<0
~e?-

.... r
Defendants

ZEtoftL.

r
-iiScfetasaj
OTHER PROVISIONS

r 3 Retention of Jurisdiction - The court retains jurisdiction over the
“ 3eJSa.;j pursuant to section 947.16(3), Florida Statutes <1983).
Consecutive/Concurrent as to Other Convictions - It is further ordered that
the composite ter* of all sentences imposed for the counts - specif
1n
this order shall run (check one) __ consecutive to __ concurrent vith
(check one) the followings
IJ1 any active sentence being served.
• EJJ specific sentences:___;---- -----—:—

the event the above sentence is to
the Sheriff of Ala^hSa County, Florida, is
deliver the defendant to the Department of
designated by the department together with
sentence and any other documents specified

the Department .o'f Corrections,
hereby ordered and greeted to
Corrections at the f*®*L***
a copy of this judgment and
by Florida Statute.

The defendant in open court was advised of the right to BPPe*j;
this lintence by filing notice of appeal within 30 days fro. this dats with
the cLerk of this court and the defendant's right to the assistance of

i«

sSwwi.m

«»........•< ... .......

.<

indigence.

U&-3&Xi££>~i2SLj

mtl*—

In imposing the above sentence. the Court further recommends:-----

cr.
• forfeited in those cases listed below as a nolle prosequi.

DONE A]
this

ORDERED 1 mopen-CoUrt,in Gainesville, Alachua County, Florida
zo^.day of
A judge^of^thdCcircuit"Court

Filed in Open Court

and defense/defendant pro se this■ —AX— day of
BY. Deputy Clerk:

(to)
*38-

u

<-

• o

